U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


FOLLOWUP OF RECOMMENDATIONS FOR
 IMPROVING GENERAL CONTROLS OVER
 AUTOMATED INFORMATION SYSTEMS,
     BUREAU OF INDIAN AFFAIRS

             REPORT NO. 99-I-454
                 JULY 1999
                                                                      A-I-N-BIA-002-98-M


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington. D.C. 20240

                                                                  JUL 2 6 1999


                                 AUDIT REPORT
Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Robert J. Williams               & ~~uL*+Q
           Assistant Inspector General for Audits

Subject:   Audit Report on Followup ofRecommendations for Improving General Controls
           Over Automated Information Systems, Bureau of Indian Affairs (No. 9 9 - I - 6 5 4 )



                                INTRODUCTION
This report presents the results of our audit of the implementation of recommendations
contained in our April 1997 audit report titled “General Controls Over Automated
Information Systems, Operations Service Center, Bureau of Indian Affairs” (No. 97-I-771)
and our June 1998 audit report titled “Followup of General Controls Over Automated
Information Systems, Operations Service Center, Bureau of Indian Affairs” (No. 98-I-483).
The objective of our audit was to determine whether the Bureau of Indian Affairs had
satisfactorily implemented the recommendations made in our prior audit reports and whether
any new recommendations were warranted. This audit supports the Office of Inspector
General’s opinion on the financial statements of the Bureau and the Office of the Special
Trustee for American Indians by evaluating the reliability of the general controls over
computer-generated data that support the Bureau’s and the Office of the Special Trustee’s
financial statements.

BACKGROUND

The Bureau’s Office of Information Resources Management, through its Operations Service
Center, both located in Albuquerque, New Mexico, is responsible for administering the
general controls over the Bureau’s and the Office of the Special Trustee’s automated
information systems. The Center provides computer services such as communications
networks, software development, operations, and maintenance; systems recovery; and user
support. The Center operates a Unisys server that is used to run the Office of the Special
Trustee’s applications, such as the Individual Indian Monies, and Bureau applications that
support Indian trust fund accounts. The Center also operated an IBM mainframe computer
until December 1997, when the Bureau transferred its IBM operations and data processing
functions to a host IBM mainframe computer owned by the U.S. Geological Survey’s
Enterprise Data Service Center, located in Reston, Virginia. The Geological Survey’s IBM
computer is used to run Bureau applications, such as the Land Records Information System
and the National Irrigation Information Management System.

SCOPE OF AUDIT
Our audit included an evaluation of actions taken by Bureau management to implement the
12 recommendations contained in our April 1997 audit report and the 8 recommendations
contained in our June 1998 audit report and a review of the general controls in place during
fiscal year 1998. To accomplish our objective, we interviewed personnel at the Operations
Service Center of the Bureau’s Office of Information Resources Management, contractor
personnel, and personnel at the Geological Survey’s Enterprise Data Service Center. We
reviewed the Bureau’s policies and procedures as they related to the Bureau’s computer
operations, analyzed system security, and reviewed and tested implementation of the prior
audit reports’ recommendations. Because the highest priority ofcenter personnel at the time
of our review was remedying applications for year 2000 (Y2K) compliancy, the availability
of Center personnel was limited. Therefore, we performed limited testing of controls over
the Unisys server.

The audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances to accomplish our audit objective.

As part of our audit, we evaluated the Bureau’s general controls over its automated
information systems that could adversely affect the data processing environment. The
control weaknesses identified are discussed in the Results of Audit section. Because of
inherent limitations in any system of internal controls, losses, noncompliance, or
misstatements may occur and not be detected. We also caution that projecting our
evaluations to future periods is subject to the risk that controls or the degree of compliance
with the controls may diminish.

                              RESULTS OF AUDIT
We concluded that the general controls over the Bureau of Indian Affairs automated
information systems were ineffective in the areas of its security program, access controls,
software development and change controls, segregation of duties, and continuity of service.
The Bureau continued to have ineffective general controls because Bureau management had
not ensured that the recommendations contained in our April 1997 and June 1998 audit
reports were implemented (see Appendices 1 and 2, respectively). Specifically, of the
20 recommendations from our prior audit reports, the Bureau had implemented
3 recommendations and had partially implemented 6 recommendations, but it had not

                                              2
implemented the remaining 11 recommendations. Office of Management and Budget
Circular A- 123, “Management Accountability and Control,” states:

        Resolution of Audit Findings and Other Deficiencies. Managers should
        promptly evaluate and determine proper actions in response to known
        deficiencies, reported audit and other findings, and related recommendations.
        Managers should complete, within established time frames, all actions that
        correct or otherwise resolve the appropriate matters brought to management’s
        attention. . . . Correcting deficiencies is an integral part of management
        accountability and must be considered a priority by the agency. [Managers
        are required to report in their annual integrity report to the President and the
        Congress any significant deficiencies and related risks.]

In addition, Circular A-123 states that deficiencies which are significant should be
considered a “material weakness.” It f?u-ther states that deficiencies are significant when the
management controls (1) do not provide assurance that assets are safeguarded against waste,
loss, unauthorized use, or misappropriation and (2) are not adequate to protect the integrity
of Federal programs or to ensure that resources are used consistent with the agency’s
mission; laws and regulations are followed; and reliable and timely information is obtained,
maintained, reported, and used for decision making.

Additionally, publications of the Office of Management and Budget and the National
Institute of Standards and Technology require Federal agencies to establish and implement
management and internal controls to protect sensitive information in general support’ and
major application systems. Office ofManagement and Budget Circular A-130, Appendix III,
“Security of Federal Automated Information Resources,” states:

        Agencies shall implement and maintain a program to assure that adequate
        security is provided for all agency information collected, processed,
        transmitted, stored, or disseminated in general support systems and major
        applications. Adequate security means security commensurate with the risk
        and magnitude of the harm resulting from the loss, misuse, or unauthorized
        access to or modification of information. This includes assuring that systems
        and applications used by the agency operate effectively and provide
        appropriate confidentiality, integrity, and availability, through the use ofcost-
        effective management, personnel, operational, and technical controls.

Since the recommendations from our prior audit reports have not been implemented, the
Bureau is at risk of loss, misuse, modification of, or unauthorized access to the data in its
automated information systems. Further, because the Bureau had not made significant


‘Office of Management and Budget Circular A- 130 defines a general support system or system to mean “an
interconnected set of information resources under the same direct management control which shares common
functionality.    A system normally includes hardware, sofhvare, mformation, data, applications,
communications and people.”

                                                   3
progress in correcting deficiencies in the general controls over its automated systems, we
believe that the Bureau is not in compliance with the Federal Financial Management
Improvement Act and should report these deficiencies to the Department as a material
weakness in the Bureau’s annual assurance statement on management controls, which is
required by the Federal Managers’ Financial Integrity Act.

The impact on the Bureau’s general controls as a result of the Bureau’s lack of
implementation of the related recommendations is discussed in the sections that follow.

System Security Program

The Bureau did not have an effective system security program that included an information
resource management strategic plan, periodic risk assessments, periodic assessments of the
system security program’s effectiveness, and personnel security policies and procedures to
ensure that appropriate security clearances for personnel in sensitive or critical automated
data processing (ADP) positions were obtained. We made nine recommendations relating
to this weakness in the prior reports (Nos. A.1, A.2, A.3, and B.l in our April 1997 report
(see Appendix 1) and Nos. A.l, A-2, A.3, A.4, and A.5 in our June 1998 report (see
Appendix 2)). During our current audit, we found that the Bureau had implemented one
recommendation and had partially implemented two recommendations, but it had not
implemented the remaining six recommendations. Therefore, the Bureau had little assurance
that its information resources were used and managed effectively to accomplish its mission
or that established controls could be relied on to protect mission-based sensitive computer
systems and data.

Access Controls

Physical and logical access controls over the Bureau’s automated information systems were
ineffective. Specifically, the Bureau did not classify its resources to determine the level of
security necessary, monitor visitor activities while at the Center, perform periodic reviews
to ensure that users’ access levels to the mainframe computers were appropriate, and change
passwords to access the Unisys computer periodically. We made six recommendations
relating to this weakness in the prior reports (Nos. C. 1, D. 1, D.2, and E. 1 in our April 1997
report (see Appendix 1) and Nos. A.6 and A.7 in our June 1998 report (see Appendix 2)).
During our current audit, we found that the Bureau had partially implemented two
recommendations but had not implemented four recommendations. Therefore, the Bureau
had little assurance that the most cost-effective access controls were in place to protect its
computer resources; that the computer resources located in the Center’s computer operations
room, such as the mainframe computer, local area network (LAN) equipment, and daily
backup tape libraries, were safeguarded from dust or fire hazards; that user access was
assigned at the appropriate level; and that password controls were adequate.




                                               4
Software Development and Change Controls

Software development and change controls were inadequate to ensure that the proper version
of an application was used in production. For example, the programmers of the National
Irrigation Information Management System and the Loan Management Accounting System
not only programmed the application but also tested, authorized, and approved the movement
of the modified programs from test or development into production. In addition, requests
to change or modify the applications were not fully documented. We made one
recommendation relating to this weakness in the prior report (No. G.l in our April 1997
report (see Appendix 1)). During our current audit, we found that the Bureau had not
implemented this recommendation. Therefore, the Bureau had little assurance that only
authorized programs and authorized modifications were implemented; that all programs and
program modifications were properly authorized, tested, and approved; and that access to and
distribution of programs were carefully controlled.

Segregation of Duties

Duties were inadequately segregated for the systems support functions in the areas of system
design, applications programming, systems programming, quality assurance/testing, library
management, change management, data control, data security, and data administration. We
made one recommendation relating to this weakness in the prior report (No. H. 1 in our April
1997 report (see Appendix 1)). During our current audit, we found that the Bureau had
partially implemented this recommendation because the IBM computer operations, such as
system design and system programming, were transferred to the Geological Survey.
However, the Bureau’s separation of duties for system functions continued to be inadequate
in the areas of applications programming, quality assurance/testing, library management,
change management, data security, and data administration. Therefore, the Bureau had little
assurance that programmers were making only authorized program changes; that computer
programmers were independently writing, testing, and approving program changes; or that
errors or illegal acts would be detected or detected timely.

Service Continuity

The Center did not have an effective means of recovering or of continuing computer
operations in the event of system failure or disaster. Specifically, the Bureau’s backup
information, such as software applications and databases, was stored on-site in the Center’s
computer operations room rather than in an off-site storage facility. We made two
recommendations relating to this weakness in the prior reports (No. J. 1 in our April 1997
report (see Appendix 1) and No. A.8 in our June 1998 report (see Appendix 2)). During our
current review, we found that the Bureau had implemented one recommendation and had
partially implemented the other recommendation. Therefore, there was no assurance that the
Center would be able to recover or resume critical computer operations in the event a system
failed or a disaster occurred.



                                             5
Recommendation
We recommend that the Assistant Secretary for Indian Affairs report the Bureau’s ineffective
general controls over its automated information systems as a material weakness in the
Bureau’s annual assurance statement, which is required by the Federal Managers’ Financial
Integrity Act.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the June 3, 1999, response (Appendix 3) to the draft report from the Assistant Secretary
for Indian Affairs, the Bureau concurred with the recommendation. Based on the response
and subsequent discussions, we consider the recommendation resolved but not implemented.
Accordingly, the recommendation will be forwarded to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation (see Appendix 4).

Regarding our April 1997 report, the Bureau, in its June 1999 response, included a revised
corrective action plan. Based on our current audit and the Bureau’s response, we consider
2 recommendations (Nos. H. 1 and I. 1) resolved and implemented and 10 recommendations
(Nos. A. 1, A.2, A.3, B. 1, C. 1, D. 1, D.2, E. 1, G. 1, and J. 1) resolved but not implemented.
Accordingly, the updated information on the prior recommendations will be forwarded to the
Assistant Secretary for Policy, Management and Budget (see Appendix 5).

Regarding our June 1998 report, the Bureau, in its June 1999 response, included a revised
corrective action plan. Based on our current audit and the Bureau’s response, we consider
three recommendations (Nos. A.l, A.3, and A.8) resolved and implemented and the
remaining five recommendations (Nos. A.2, A.4, A.5, A.6, and A.7)‘resolved but not
implemented. Accordingly, the updated information on the prior recommendations will be
forwarded to the Assistant Secretary for Policy, Management and Budget (see Appendix 6).

Since the recommendation contained in this report is considered resolved, no further
response to the Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.




                                               6
                                                                                 APPENDIX 1
                                                                                   Page 1 of 7

    SUMMARY OF RECOMMENDATIONS AND CORRECTIVE
              ACTIONS FOR AUDIT REPORT
   “GENERAL CONTROLS OVER AUTOMATED INFORMATION
         SYSTEMS, OPERATIONS SERVICE CENTER,
         BUREAU OF INDIAN AFFAIRS” (NO. 97-I-771)

                                                        Status of Recommendations and
            Recommendations                                    Corrective Actions

A. 1. The information technology security           Partially implemented. The Bureau of
function is elevated organizationally to at         Indian Affairs stated that the Information
least report directly to the Director, Office       Technology (IT) Security Manager had
of Information Resources Management; is             reported to the Director, Office of
formally provided with authority to                 Information Resources Management, since
implement and enforce a Bureauwide                  October 1997 and that the position had
system security program; and is provided            Bureauwide authority for the information
staff to perform the required duties, such as       technology security program. The Bureau
providing computer security awareness               also stated that sufficient staff would be
training and performing periodic risk               available to manage security requirements
assessments.                                        once the transfer to the host IBM computer
                                                    at the U.S. Geological Survey had taken
                                                    place. We found that the Security Manager
                                                    reported to the Director, Office of
                                                    Information Resources Management;
                                                    however, we did not find that the Security
                                                    Manager had acted on the authority to
                                                    implement a Bureauwide security plan.
                                                    Although authority is implied in the
                                                    position description, the Bureau had not
                                                    ensured that the Security Manager’s
                                                    authority was recomized by all Bureau
                                                    personnel. In addition, the Security
                                                    Manager is physically located at the
                                                    Operations Service Center and has focused
                                                    on Center security and user access to the
                                                    IBM mainframe and Unisys server rather
                                                    than on Bureauwide system security issues.
                                                    We also found that additional staff had not
                                                    been assigned to assist in providing
                                                    security awareness training and performing
                                                    risk assessments when the IBM operations


                                                7
                                                                             APPENDlX 1
                                                                               Page 2 of 7

                                                    Status of Recommendations and
           Recommendations                                 Corrective Actions


                                               were transferred to the host computer at the
                                               Geological Survey.

A.2 A system security program is           Not implemented. The Bureau stated that it
developed and documented which includes had entered into an agreement with the
the information required by the Computer   Geological Survey’s Washington
Security Act of 1987 and Office of         Administrative Service Center - West to
Management and Budget Circular A-l 30,     develop, by July 3 1, 1998, a comprehensive
Appendix III, “Security of Federal          security plan. The “Bureau of Indian
Automated Information Resources,” and       Affairs Logical Security Internal
policies and procedures are implemented to Procedures Manual” was delivered to the
keep the system security program current.  Bureau during our site visit in September
                                            1998. However, the plan was not Bureau
                                           specific but rather an overview of the
                                           Geological Survey’s security for its IBM
                                           computer located in Reston, Virginia.
                                           Additionally, we found that policies and
                                           procedures were not developed and
                                           implemented to keep the system security
                                           program current.

A.3. The Bureau’s security personnel           Kot implemented. The Bureau stated that
perform risk assessments of the Bureau’s       its information systems security staff would
automated information systems                  oversee this effort beginning in fiscal year
environment and, as appropriate, provide       1999. However, we found that
assurance that the necessary changes are       management had not developed a security
implemented to manage the risks                program; therefore, plans had not been
identified.                                    developed to begin risk assessments in
                                               fiscal year 1999.




                                           8
                                                                               APPENDIX 1
                                                                                 Page 3 of 7

                                                     Status of Recommendations and
           Recommendations                                  Corrective Actions


B. 1. Ensure that personnel security            Partially implemented. The Bureau stated
policies and procedures are developed,          that it had reorganized its position
implemented, and enforced, including            sensitivity program andthat, as part of the
those for obtaining appropriate security        effort, it had begun to review all sensitive
clearances for personnel in sensitive or        positions. We found that personnel policies
critical automated data processing (ADP)        and procedures had not been developed or
positions and for informing the security        implemented to ensure that appropriate
staff, in writing, whenever employees who       security clearances for personnel in
are system users terminate their                sensitive or critical ADP positions were
employment or are transferred.                  obtained or that security staff were notified
                                                in writing when employees terminated their
                                                employment or were transferred. However,
                                                during our site visit, the Security Manager
                                                was working with the Bureau’s Central
                                                Office in reviewing the sensitivity levels of
                                                personnel assigned to the Operations
                                                Service Center. In addition, the Bureau
                                                stated that the Security Manager would
                                                ensure that the employee termination report
                                                was received and reconciled with system
                                                users. During our site visit, Bureau
                                                management had not agreed on how the
                                                termination report would be provided to the
                                                Security Manager.




                                            9
                                                                            APPENDIX 1
                                                                              Page 4 of 7

                                                   Status of Recommendations and
           Recommendations                                Corrective Actions


C. 1. Develop and implement policies to       Not implemented. The Bureau stated that
classify the Bureau’s computer resources      risk assessments and classifications of its
in accordance with the results of periodic    automated information systems
risk assessments and guidance contained in    environment would be performed
Office of Management and Budget               beginning in fiscal year 1999 in accordance
Circular A-130, Appendix III.                 with its security program plan. According
                                              to the Bureau, assessments would be
                                              performed by teams consisting of personnel
                                              from the Bureau’s Office of Information
                                              Resources Management and program
                                              offices. We found that policies which
                                              would ensure that computer resources were
                                              classified in accordance with
                                              Circular A- 130 had not been developed or
                                              implemented.

D. 1. Ensure that sufficient staff are        Not implemented. The Bureau stated that
provided to adequately monitor all visitor    the recommendation had been implemented
activities.                                   to the extent possible given the Bureau’s
                                              available resources. The Bureau further
                                              stated that the organizational element
                                              receiving the visitors would monitor visitor
                                              activities. We found, during our site visit,
                                              that Center management did not
                                              consistently monitor visitors’ activities.




                                             10
                                                                                  APPENDIX 1
                                                                                    Page 5 of 7

                                                         Status of Recommendations and
            Recommendations                                     Corrective Actions


D.2. Ensure that funding is provided for            Partially implemented. The Bureau stated
adequate maintenance of the computer                that it had provided funds to the Center for
operations room, such as providing daily            full-time housekeeping and maintenance
housekeeping services, or that fire-                services for the computer room beginning
producing equipment and supplies are                in fiscal year 1998. We found that the
removed from the computer room.                     Bureau had provided for daily
                                                    housekeeping services and that the fire-
                                                    producing equipment was no longer in use.
                                                    Although housekeeping services were
                                                    being performed and the fire-producing
                                                    equipment identified in the prior report was
                                                    no longer in use, the Center was using the
                                                    computer operations room as a storage
                                                    facility, which increased the risk of
                                                    equipment failure and other fire hazards.
                                                    For example, cardboard boxes of old
                                                    records and old computer equipment were
                                                    stored in the computer operations room.

E. 1. Ensure that policies are developed            Not implemented. The Bureau did not
and implemented which match personnel               address this recommendation. We found
tiles with system users periodically, that          that new or revised policies had not been
user identifications (IDS) are deleted from         developed which would match personnel
the system for users whose employment               tiles with system users periodically, delete
had been terminated, and that verification          user IDS from the system for users whose
and approval are obtained from user                 employment had been terminated, and
supervisors and application owners or               ensure that verifications and approvals were
managers that the levels of access are              obtained from users’ supervisors and
appropriate.                                        application owners that the users’ levels of
                                                    access were appropriate.

F. 1. Ensure that a higher priority is given        Resolved. In the June 1998 audit report,
to moving the applications that reside on           we recognized that the recommendation
the Unisys mainframe to the IBM                     was no longer applicable because the
mainframe.                                          Bureau had determined that the Unisys
                                                    applications could not be moved to the
                                                    IBM mainframe.



                                               11
                                                                              APPENDIX 1
                                                                                Page 6 of 7

                                                     Status of Recommendations and
            Recommendations                                 Corrective Actions


G. 1. Ensure that policies and procedures       Not implemented. The Bureau stated that
are developed and implemented which             the Applications Support Branch would
clearly identify the individuals responsible    develop the policies and procedures.
and accountable for application                 However, we found that the Branch’s
development and changes.                        highest priority was the Bureau’s Y2K
                                                effort; thus, the policies and procedures
                                                had not been developed.

H. 1. Ensure that staffing at the Center is     Implemented. The Bureau did not address
evaluated and adjusted so that duties for       this recommendation in its responses to
critical system support functions are           our prior audit reports; however, for the
adequately segregated and fully utilized.       IBM mainframe applications, the
                                                recommendation was resolved with the
                                                transfer of the Bureau’s mainframe
                                                operations to the Geological Survey’s host
                                                computer. We could not verify whether the
                                                critical system support functions for the
                                                Unisys server were adjusted during our
                                                fieldwork because Center personnel were
                                                involved with the Bureau’s Y2K testing
                                                and were therefore not available. Based on
                                                the Bureau’s June 3, 1999, response to the
                                                draft report, we consider the
                                                recommendation implemented because the
                                                Bureau stated that it is examining
                                                organizational changes and personnel
                                                assignments to ensure that duties are
                                                separated. The Bureau further stated that it
                                                will continue to monitor its progress in
                                                separating critical system support
                                                functions.




                                               12
                                                                                APPENDIX 1
                                                                                  Page 7 of 7

                                                       Status of Recommendations and
            Recommendations                                   Corrective Actions


I. 1. Ensure that access and activities of the    Implemented. The Bureau transferred its
Center’s system programmers are                   IBM computer operations to the Geological
controlled and monitored by security staff        Survey’s host computer. After the transfer,
and that RACF controls are established to         the Geological Survey established the
protect system resources.                         appropriate RACF controls that would
                                                  protect the system resources, which
                                                  included denying the Bureau’s system
                                                  programmer access to the IBM computer’s
                                                  system controls.

J. 1. Ensure that a contingency plan is           Partially implemented. The Bureau stated
developed and tested and that funding is          that it had a disaster recovery contract
provided for acquiring a secure off-site          which fully tested and certified the Unisys-
storage facility.                                 hosted applications. However, although a
                                                  contingency plan had not been developed,
                                                  the Bureau had contracted for a backup site
                                                  for the Unisys server in the event of a
                                                  disaster and had tested the functionality of
                                                  the backup site. The Geological Survey is
                                                  responsible for contingency planning for
                                                  the Bureau’s IBM applications that reside
                                                  on the Geological Survey’s host computer.
                                                  Additionally, although the Bureau had
                                                  provided funding for off-site storage of its
                                                  backup media, the Center had not used the
                                                  site. The Bureau’s backup media were
                                                  stored on-site in the Center’s computer
                                                  operations room.




                                                 13
                                                                                   APPENDIX 2
                                                                                     Page 1 of 4

    SUMMARY OF RECOMMENDATIONS AND CORRECTIVE
             ACTIONS FOR AUDIT REPORT
  “FOLLOWUP OF GENERAL CONTROLS OVER AUTOMATED
  INFORMATION SYSTEMS, OPERATIONS SERVICE CENTER,
        BUREAU OF INDIAN AFFAIRS” (NO. 98-I-483)

                                                         Status of Recommendations and
            Recommendations                                     Corrective Actions

A. 1. Establish as a high priority the use of        Implemented. The Bureau of Indian
the Geological Survey’s host computer’s              Affairs transferred its IBM mainframe
operating, security, and automated job               operations to the Geological Survey’s host
scheduling systems.                                  computer in December 1997. We reported
                                                     this recommendation as implemented in
                                                     our June 1998 audit report.

A.2. Develop and approve an Office of                Not implemented. The Bureau stated that
Information Resources Management                     a strategic plan for the Office of
strategic plan that provides direction to and        Information Resources Management was
defines the functions of the Operations              being developed and finalized under a
Service Center.                                      contract. The strategic plan was to have
                                                     been completed by September 30, 1998.
                                                     We found that the contract, dated March 9,
                                                     1998, was to support the Bureau’s overall
                                                     Information Resources Management
                                                     strategic and tactical plans. However,
                                                     contract performance was based on task
                                                     orders, and at the time of our site visit, a
                                                     task order had not been issued to develop
                                                     a strategic plan.




                                                14
                                                                              APPENDIX 2
                                                                                Page 2 of 4

                                                      Status of Recommendations and
           Recommendations                                   Corrective Actions


A.3. Hold the Information Technology             Implemented. The Bureau stated that the
(IT) Security Manager accountable for            IT Security Manager would be held
performing the position responsibilities.        accountable through the performance
                                                 appraisal process. However, we found that
                                                 the IT Security Manager had not been held
                                                 accountable for not implementing a
                                                 Bureauwide security program, providing
                                                 security awareness training, or performing
                                                 risk assessments. Additionally, the IT
                                                 Security Manager performed the functions
                                                 of a local area network (LAN)
                                                 administrator, which was not part of the IT
                                                 Security Manager’s duties. Based on the
                                                 Bureau’s June 3, 1999, response to the
                                                 draft report, we considered the
                                                 recommendation implemented because the
                                                 Bureau stated in its response that the IT
                                                 Security Manager will be evaluated based
                                                 on his performance standards and position
                                                 description. The response further stated
                                                 that the Division of Information Resources
                                                 Management is in the process of
                                                 “augmenting its IT security staff.”




                                            15
                                                                                  APPENDIX 2
                                                                                    Page 3 of 4

                                                        Status of Recommendations and
            Recommendations                                    Corrective Actions

A.4. Periodically perform an evaluation of          Not implemented. The Bureau stated that
the system security program’s                       it had entered into an agreement with the
effectiveness and include any resultant             Washington Administrative Service
corrective actions in future Bureau security        Center - West to develop a comprehensive
plans.                                              computer security plan. The plan’s
                                                    operating procedures and the management
                                                    control reviews required by the
                                                    Department of the Interior’s Office of
                                                    Information Resources Management would
                                                    ensure that the plan would be reviewed
                                                    periodically and updated. The plan was to
                                                    have been developed by July 3 1, 1998.
                                                    The Center received the “Bureau of Indian
                                                    Affairs Logical Security Internal
                                                    Procedures Manual” in September 1998.
                                                    We found that the “Manual” was not
                                                    Bureau specific but generally related to the
                                                    Geological Survey and did not provide
                                                    procedures for performing evaluations of
                                                    the system security program. In addition,
                                                    an evaluation of the system security
                                                    program’s effectiveness had not been
                                                    performed in fiscal years 1996, 1997, or
                                                    1998.

AS. Redetermine, based on the Office of             Not implemented. The Bureau stated that
Information Resources Management’s                  risk assessments and classifications of its
strategic plan, when the Bureau can begin           automated information systems
performing risk assessments and                     environment would be performed
classifying its resources. Also, personnel          beginning in fiscal year 1999 in accordance
who will be responsible for the risk                with its security program plan. However,
assessments and resource classifications            the Bureau had not developed a security
should be identified.                               program; therefore, plans had not been
                                                    developed to begin risk assessments in
                                                    fiscal year 1999, and personnel responsible
                                                    for the risk assessments and resource
                                                    classifications had not been identified.




                                               16
                                                                                 APPENDIX 2
                                                                                   Page 4 of 4

                                                        Status of Recommendations and
            Recommendations                                    Corrective Actions

A.6 Obtain security clearances for ADP              Not implemented. The Bureau had begun
personnel who are not assigned to the               to review and reassign security clearances
Center that are commensurate with their             for ADP personnel as a result of a
positions.                                          Bureauwide initiative started in February
                                                    1998. During our site visit, the Security
                                                    Manager was reviewing security clearances
                                                    for Center personnel but had not begun to
                                                    review clearances for personnel outside the
                                                    Center.

A.7. Require Bureau staff to review and             Partially implemented. Under the direction
validate the appropriateness of users’              of personnel of the Geological Survey’s
levels of access to the Bureau’s IBM                Enterprise Data Service Center, the
applications. If the users’ levels of access        Security Manager had begun to review the
are not reviewed and validated by Bureau            appropriateness of users’ levels of access
personnel, the Bureau should modify its             to the Bureau’s IBM applications.
agreement with the Geological Survey to             Although the Bureau had begun
include the requirements that access                negotiations with the Geological Survey to
reviews and verifications should be                 ensure that users’ levels of access were
performed for the IBM applications by the           reviewed jointly by the Bureau and the
Geological Survey.                                  Geological Survey, the Bureau had not
                                                    finalized the negotiations by signing the
                                                    agreement.

A.8. Remove all safety hazards from the             Implemented. The Bureau stated that
computer operations room.                           safety hazards had been removed. During
                                                    our site visit, we found that the safety
                                                    hazards had been removed.




                                               17
                                                                                           APPENDIX 3
                                                                                           Page 1 of 7



                   United States Department of the Interior
                                    OFFICE OF THE SECRETARY
                                     WASHINGTON, D.C. 20240

                                        JUN 3 1999
Memorandum

To:        Assistant Inspector General for Audits

From:      Assistant Secretary - Indian *fl

Subject:   Draft Audit Report on Follo              e ations for Improving General Controls
           Over Automated Information Systems, Bureau of Indian Affairs (Assignment No. A-
           IN-BIA-002-98-M)

The subject audit report addresses the Bureau of Indian Affairs’ implementation of recommendations
made by the Office of Inspector General (OIG) in April 1977, and June 1998, audit reports on the
Operation Service Center’s general controls over automated information systems (Report Nos. 97-1-
771 and 98-I-483, respectively). The audit found that of the 20 recommendations contained in the
prior reports, the Bureau had implemented three recommendations, had partially implemented six
recommendations, and had not implemented 11 recommendations. The most recent audit also
includes one new recommendation.

The Bureau generally agrees with the findings of the followup audit. The revised corrective action
plan (Attachment) provides information on the additional actions taken by the Bureau since the
completion of the audit fieldwork and identifies revised target dates and officials responsible for
implementing open recommendations.

Recommendation. [The Office of Inspector General] recommend[s] that the Assistant Secretary for
Indian Affairs report the Bureau’s ineffective general controls over its automated information
systems as a material weakness in the’Bureau’s annual assurance statement, which is required by the
Federal Managers’ Financial Integrity Act.

Bureau Response. The Bureau concurs. The Bureau recognizes the security risks and is taking
steps to correct these areas as we work to implement the recommendations made in the prior reports.
The audit of the Center’s general controls is conducted in conjunction with the OIG’s audits of the
financial statements of the Office of the Special Trustee for American Indians and of the Bureau of
Indian Affairs and is used to evaluate the reliability of the general controls over computer-generated
data that support these statements. As part of the corrective action, the Bureau is replacing the older
applications systems with modem technology, which will enable more effective general controls over
the automated systems.

The Trust Fund Accounting System (TFAS) that is being implemented by the Office of Trust Funds
Management (OTFM) will replace the existing Individual Indian Monies system. Similarly, the



                                                   18
                                                                              f-iPPENDIX 3
                                                                              Page 2 of 7


Bureau is implementing a Trust Asset and Accounting Management System (TAAMS) to replace
the Land Titles and Records System and the Integrated Records Management System that comprise
the Bureau’s main Indian trust systems. Both systems will be operated and maintained by
contractors. With the deployment of these two systems, the ability to prepare accurate and timely
financial statements will be greatly enhanced.

Attachment
                                                                                        APPENDIX 3
                                                                                        Page 3 of 7



                                                                                        Attachment



                        STATUS OF CORRECTIVE ACTIONS FOR
                        UNIMPLEMENTED RECOMMENDATIONS


 OIG 97-I-771          General Controls Over Automated Information Systems, Operations
                       Service Center, BIA
                       [Issued: April 19971

Recommendation A. 1. The information technology security function is elevated organizationally
to at least report to the Director, Office of Information Resources Management; is formally provided
with the authority to implement and enforce a Bureauwide system security program; and is provided
staff to perform the required duties, such as providing computer security awareness training and
performing periodic risk assessments.

Status. The revised Departmental Manual chapter on BIA organization (130 DM 4) recognizes the
Di\,ision of Information Resources Management (IRM) as providing Bureauwide information
technology security leadership. Indian Affairs Manual (IAM) releases on information technology
will also emphasize this point. To this end, IRM has evaluated the security plan for the Offtce of
Law Enforcement. Regarding security awareness training, the Bureau is working with the
Departmental information resources management staffto identify and develop LAN and Web based
security awareness computer based training.

          Revised Target Date:               1213 l/99
          Responsible Official:              IT Security Manager

Recommendation A.2. Develop and document a system security program which includes the
information required by the Computer Security Act of 1987 and Office of Management and Budget
Circular A-l 30, Appendix III, and implement policies and procedures to keep the system security
plan current.

Status The Bureau of Indian Affairs Logical Security Internal Procedures Manual provides a
-.
starting point for the development of a Bureauwide security plan. The security plan and the IAM
issuances will provide policies and procedures for keeping the system security program current.

          Revised Target Date:               I 2/3 I/99
          Responsible Official:              IT Security Manager

Recommendation A.3. The Bureau’s security personnel should perform risk assessments of the
Bureau’s automated information systems environment and, as appropriate, provide assurance that
the necessary changes are implemented to manage the risks identified.




                                               20
                                                                                           APPENDIX 3
                                                                                           Page 4 of 7



Status It is still the Bureau’s plan to initiate risk assessment in fiscal year 1999. The information
-*
security system staff will oversee the performance of the risk assessments which will be conducted
in accordance with the guidance provided by OMB Circular A- 130, Appendix III, and by the General
Accounting Office publication entitled “Information Security Management.”
           Revised Target Date:                1X 1 J99
           Responsible Official:               IT Security Manager

Recommendation B.l. Ensure that personnel security policies and procedures are developed,
implemented, and enforced, including those for obtaining appropriate security clearances for
personnel in sensitive or critical automated data processing positions and for informing the security
staff, in writing, whenever employees who are system users terminate their employment or are
transferred.

As
Status.
    part of a Bureauwide effort to address deficiencies in its position sensitivity and security
program, all Bureau positions were reviewed and classified consistently. The Center’s IT security
staff is currently working on a project to bring those background investigations current with due
consideration for the levels of investigation appropriate for personnel in sensitive or critical
information technology positions. Policies and procedures have been drafted, and employee
checkout procedures were revised to require notification of the IT security manager as part of the
employee checkout process.

           Revised Target Date:               1 O/3 1 I99
           Responsible Official:              Bureau Security Manager

Recommendation C. 1. Develop and implement policies to classify the Bureau’s computer resources
in accordance with the results of periodic risk assessments and guidance contained in Office of
Management and Budget Circular A- 130, Appendix III.

Status It is still the Bureau’s plan to begin the classification of its automated information systems
-*
in fiscal year 1999. The reviews will be done by IRM staff with the assistance of program personnel.
This will be performed in conjunction with Recommendation A.3.

           Revised Target Date:               12/31/99
           Responsible Official               IT Security Manager

Recommendation D. 1. Sufficient staff are provided to adequately monitor all visitor activities.

Status Formal procedures have been developed and issued by the Director, IRM to control visitor
-*
access into the Center. In addition, the Bureau has awarded a contract for significant improvements
in access control. The improvements will include automated door control and closed circuit
television subsystems.

          Revised Target Date:                0813 l/99
          Responsible Official                IT Security Manager



                                                 21
                                                                                          APPENDIX 3
                                                                                          Page 5 of 7



Recommendation D-2. Provide funding for adequate maintenance of the computer operating room,
such as providing daily housekeeping services, or remove fire-producing equipment and supplies
from the computer room.

Status The IBM 3090 and Unisys Al7 computers have been removed. The Center’s daily
-*
housekeeping has been improved and the staff are no longer storing old computer equipment, records
and supplies in the computer operations room. The Center has reconfigured the space to provide
additional operations and storage space. This effort includes separating the area devoted to servers
and tape readers from the area used for printing.

           Revised Target Date:                08/01/99
           Responsible Official                IT Security Manager

Recommendation E. 1. Ensure that policies are developed and implemented which match personnel
files with system users periodically, that user IDS are deleted from the system for users whose
employment has been terminated, and that verification and approval are obtained from user
supervisors and application owners or managers that the levels of access are appropriate.

Status The IRM is in the process of obtaining from system owners lists of individuals who have
-.
been authorized access to the respective systems. Those individuals who have not been given access
have had their user identifications deleted from the systems. To date, IRM has completed this
process for the Individual Indian Monies system and the Social Services Automated System. The
IRM will begin reviewing the user identifications for the Land Records Information System. All
other systems will be reviewed. The IRM is also in the process of comparing user identification
lists with current employee lists to eliminate those individuals no longer employed by the Bureau.

           Revised Target Date:                1213 l/99
           Responsible Official                IT Security Manager

Recommendation G. 1. Ensure that policies and procedures are developed and implemented which
clearly identify the individuals responsible and accountable for application development and
changes.

The
Status.
      Applications Support Branch is responsible for developing and implementing standards,
policies and procedures to ensure full accountability for all application system change management.
A configuration management plan was developed for Y2K and will be expanded to cover all Bureau
IT development and maintenance.

          Revised Target Date:                09/30/99
          Responsible Official:               Chief, Applications Support Branch

Recommendation H. 1. Ensure that staffing at the Center is evaluated and adjusted so that the duties
for critical system support functions are adequately segregated and fully utilized.




                                                22
                                                                                         APPENDIX 3
                                                                                         Page 6 of 7


The
Status.
     Bureau recognizes that the required segregation of duties is a continuing challenge in
an environment of reduced staffing levels and will continue to explore ways of ensuring separation
of duties through its organizational changes and its assignments. For example, the Application
Support Branch which performs and monitors system development is distinct from the security
function which grants access to systems. Further, the individuals who control the data both by
original data entry and data update are distinct from the Application Support Branch. The Bureau
will continue to monitor the progress in this area.

Recommendation J. 1. Ensure that a contingency plan is developed and tested and that funding is
provided for acquiring a secure off-site storage facility.

Status The Center is storing its backup media at the off-site storage facility. The USGS has a
-*
disaster recovery plan for the IBM mainframe and is responsible for implementing and testing the
plan. The Center has a disaster recovery plan for the Unisys system and had scheduled a test of the
plan on May 3 - 4, 1999. Unfortunately, the test was postponed by the contractor. The Center is in
the process of rescheduling a new test date on the plan. In addition, the Bureau is developing a
Continuity of Operations plan for the Center.

           Revised Target Date:               06/30/99
           Responsible Official:              IT Security Manager


OIG 98-I-483           Followup of General Controls Over Automated Information Systems,
                       Operations Service Center, Bureau of Indian Affairs
                       [Issued: June 19981


Recommendation 2. Develop and approve an Office of Information Resources Management
strategic plan that provides direction to and defines the functions of the Operations Service Center.

Status The Bureau will issue the task order for the strategic and tactical plans.
-*

          Revised Target Date:                09/30/99
          Responsible Official:               Director, IRM

Recommendation 3. Hold the Information Technology Security Manager accountable for performing
the position responsibilities

Status. The IT Security Manager will continue to be evaluated based upon his performance
standards and position description. In addition, the IRM is in the process of augmenting its IT
security staff.

Recommendation 4. Periodically perform an evaluation of the system security program’s
effectiveness and include any resultant corrective actions in future Bureau security plans.




                                                 23
                                                                                          APPENDIX 3
                                                                                          Page 7 of 7


Status The system security program will be periodically evaluated in accordance with the schedule
established by the IT security plan and OMB Circular A-l 30. The first review will be completed
and a periodic review schedule established by December 3 1, 1999.

           Revised Target Date:                1213 1199
           Responsible Official:               IT Security Manager

Recommendation 5. Redetermine, based on the Office of Information Resources Management’s
strategic plan, when the Bureau can begin performing risk assessments and classifying its resources.
Also personnel who will be responsible for the risk assessments and resource classifications should
be identified.

See
Status.
     corrective action plan for Recommendation No. A.3

          Revised Target Date:                12/31!99
          Responsible Official:               IT Security Manager

Recommendation 6. Obtain security clearances for ADP personnel who are not assigned to the
Center that are commensurate with their positions.

Status Personnel in sensitive and critical automated data processing positions have been identified.
Review and updating of background investigations of individuals who have IT system access and
functions has been extended to include contractor employees, from coast to coast (including, for
example contractor individuals in Washington, DC, and Portland, Oregon). The Bureau will continue
to conduct and assure appropriate background investigations for individuals who enter the Bureau’s
work force and those who transfer from one role or location to another within the workforce.

          Revised Target Date:                1 or3 l/99
          Responsible Official:               Bureau Security Officer

Recommendation 7. Require Bureau staff to review and validate the appropriateness of users’ levels
of access to the Bureau’s IBM applications. If the users’ levels of access are not reviewed and
validated by Bureau personnel, the Bureau should modify its agreement with the Geological Survey
to include the requirements that access reviews and verifications should be performed for the IBM
applications by the Geological Survey

Status The Bureau will finalize the agreement with the U.S. Geological Survey to review users’
-.
level of access.

          Revised Target Date:               09/30/99
          Responsible Official:              Director, IRM




                                                24
                                                                 APPENDIX 4


  STATUS OF CURRENT AUDIT REPORT RECOMMENDATION


Finding/Recommendation
        Reference                Status               Action Required

           1             Resolved; not        No further response to the Office
                         implemented          of Inspector General is required.
                                              The recommendation will be
                                              referred to the Assistant
                                              Secretary for Policy,
                                              Management and Budget for
                                              tracking of implementation.




                                         25
                                                                      APPENDIX 5


 STATUS OF APRIL 1997 AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference                    Status               Action Required

       H.l andI.             Implemented.         No further action is required.

A.l, A.2, A.3, B.1, C.l,     Resolved; not        No further response to the Office
D.l, D.2, El, G.l, and J.l   implemented.         of Inspector General is required.
                                                  The recommendations and the
                                                  revised corrective action plan
                                                  will be forwarded to the
                                                  Assistant Secretary for Policy,
                                                  Management and Budget for
                                                  tracking of implementation.




                                             26
                                                                  APPENDIX 6

  STATUS OF JUNE 1998 AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference                 Status               Action Required

    A.l, A.3, and A.8     Implemented.         No further action is required.

A.2, A.4, A.5, A.6, and   Resolved; not        No further response to the Office
A.7                       implemented.         of Inspector General is required.
                                               The recommendations and the
                                               revised corrective action plan
                                               will be forwarded to the
                                               Assistant Secretary for Policy,
                                               Management and Budget for
                                               tracking of implementation.




                                          27
                    ILLEGAL OR WASTEFUL ACTIVITIES
                        SHOULD BE REPORTED TO
                   THE OFFICE OF INSPECTOR GENERAL


                                  Internet/E-Mail Address

                                       www.oig.doi.gov


                       Within the Continental United States

 U.S. Department of the Interior                         Our 24-hour
 Gff$x of Inspector General                              Telephone HOTLINE
 1849 c Street, N.W.                                     l-800-424-508 1 or
 Mail Stop 5341                                          (202) 208-5300
 Washington, D.C. 20240
                                                         TDD for hearing impaired
                                                         (202) 208-2420 or
                                                         l-800-354-0996


                     Outside the Continental United States

                                      Caribbean Region

U.S. Department of the Interior                        (703) 235-922 1
office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (671) 647-6060
off& of Inspector General
North Pacific Region
415 Chalan SatI Antonio
Baltej Pavilion, Suite 306
Tamming, Guam 96911
                             _   _   _ .___ ____   ‘.   A__   -a.*-_




Toll Free Numbers:
 l-800-424-5081          m
 TDD l-800-354-0996      5
                         E
FJXCommercial Numbers:
 (202) 208-5300
                         E
 TDD (202) 208-2420      :

 HOTLINE i
1849 C Street, N.W.
